<html>
<title> - SUPPORTING THE RIGHT OF THE PEOPLE OF UKRAINE TO FREELY ELECT THEIR GOVERNMENT AND DETERMINE THEIR FUTURE; AND EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES REGARDING THE SAFETY AND SECURITY OF JEWISH COMMUNITIES IN EUROPE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





  SUPPORTING THE RIGHT OF THE PEOPLE OF UKRAINE TO FREELY ELECT THEIR 
GOVERNMENT AND DETERMINE THEIR FUTURE; AND EXPRESSING THE SENSE OF THE 
 HOUSE OF REPRESENTATIVES REGARDING THE SAFETY AND SECURITY OF JEWISH 
                         COMMUNITIES IN EUROPE

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                      H. Res. 348 and H. Res. 354

                               __________

                            OCTOBER 9, 2015

                               __________

                           Serial No. 114-109

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-910 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF:

H. Res. 348, Supporting the right of the people of Ukraine to 
  freely elect their government and determine their future.......     2
  Amendment in the nature of a substitute to H. Res. 348 offered 
    by the Honorable David Cicilline, a Representative in 
    Congress from the State of Rhode Island......................     6
      Amendment to the amendment in the nature of a substitute to 
        H. Res. 348 offered by the Honorable David Cicilline.....    10
H. Res. 354, Expressing the sense of the House of Representatives 
  regarding the safety and security of Jewish communities in 
  Europe.........................................................    11
  Amendment in the nature of a substitute to H. Res. 354 offered 
    by the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    21

                                APPENDIX

Markup notice....................................................    38
Markup minutes...................................................    39
Markup summary...................................................    41
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    42
 
  SUPPORTING THE RIGHT OF THE PEOPLE OF UKRAINE TO FREELY ELECT THEIR 
GOVERNMENT AND DETERMINE THEIR FUTURE; AND EXPRESSING THE SENSE OF THE 
 HOUSE OF REPRESENTATIVES REGARDING THE SAFETY AND SECURITY OF JEWISH 
                         COMMUNITIES IN EUROPE

                              ----------                              


                        FRIDAY, OCTOBER 9, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11:24 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet today to mark up two bipartisan 
resolutions. Without objection, all members may have 5 days to 
submit statements for the record and any extraneous materials 
on today's business that you want to include there.
    As you were all notified yesterday, we intend to consider 
today's measures en bloc. And so without objection, the 
following items previously provided to members will be 
considered en bloc, and are considered as read: House 
Resolution 348, supporting the right of the people of Ukraine 
to freely elect their government and determine their future. 
And with it, Cicilline amendment 200 in the nature of a 
substitute to House Resolution 348, and Cicilline second degree 
amendment 58 to the ANS.
    Then we have House Resolution 354, expressing the sense of 
the House regarding the safety and security of Jewish 
communities in Europe, and Smith amendment 201 in the nature of 
a substitute to the House Resolution 354.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. And after recognizing myself and the 
ranking member, I will be pleased to recognize any member 
seeking recognition to speak on either of these measures.
    So first, I want to thank Representative Cicilline for 
introducing this resolution and for his commitment to the 
people of Ukraine. In 2014, Mr. Cicilline, along with Ranking 
Member Engel and committee members Poe and Lowenthal and 
Frankel and me, traveled to Ukraine. We traveled to as far east 
as we could fly, to Dnipropetrovsk, which is the Russian-
speaking part of Ukraine, and we heard the stories from the 
perspectives of the local Russian-speaking Ukranians about this 
conflict.
    And what they told us was that Russia was trying to recruit 
every skinhead and malcontent and bring them there. But they 
said the accent is different. So those with a Muscovite accent, 
we are arresting them, we are holding them in the brig until 
the cessation of hostilities.
    But they said what we are really concerned about is not 
these Russian interlopers, what we are worried about are the 
Russian forces, when they take the patches off, and Russian 
Army. So what we need are anti-tank weapons, what we need is 
the ability to buy equipment that if they attack 
Dnipropetrovsk, which is on the border of Luhansk, if they 
attack us in the Donetsk region, then we will be able to 
defend.
    And today, Russian aggression against Ukraine remains a 
daily reality along that border region. The ongoing conflict 
has taken the lives of 8,000 Ukranians. Moscow continues to 
provide weapons and support to the separatists who control 
large areas of eastern Ukraine. They feel they can deal with 
the separatists, but they feel that their problem is the 
regular Russian Army that is in that theater.
    The so-called Minsk agreement lays out a series of steps to 
bring peace to the region, including holding local elections in 
Ukraine. The Ukrainian Government has scheduled those elections 
for October 25. But they will not be held in those areas of 
eastern Ukraine that are controlled by Russian-led separatists 
because free and fair elections are not possible in Luhansk and 
Donetsk.
    However, the elections will go forward in the rest of the 
country with independent observers to ensure they meet 
international standards, and this resolution strongly supports 
the right of the people of Ukraine to freely elect their 
government, urges the administration to expedite assistance for 
reforms to promote free and fair elections, and condemns 
efforts by outside forces, especially the Russian Government, 
from interfering in those elections.
    And lastly, we turn to House Resolution 354, regarding the 
safety and security of Jewish communities in Europe. Anti-
Semitism in Europe has been on the rise. The horrific loss of 
life that occurred in the Paris and Copenhagen attacks 
highlights the urgent need for European governments to better 
protect their Jewish communities.
    This timely resolution urges those governments in Europe to 
consider several commonsense steps aimed at improving the 
safety of Jewish citizens there, such as establishing 
partnerships between law enforcement and Jewish community 
groups in order to improve security plans, and including 
training and the law enforcement response to anti-Semitic 
violence.
    The measure also encourages European nations to improve 
communications among themselves, as well as with the U.S., and 
to analyze trends in anti-Semitic crimes, and to share best 
practices in combating extremism.
    And I thank Congressman Chris Smith of New Jersey for 
authoring this important measure and for his long-time 
commitment to promoting religious freedom around the world.
    I now recognize the ranking member for his remarks.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling this markup. Let me say that I agree with every word 
you said. I want to put my thoughts with yours. I know we are 
short on time, so I will enter my full statement into the 
record and issue it to the press.
    But I fully support these measures, and am particularly 
happy that our committee once again is advancing good 
bipartisan legislation, as we have done so often. So I ask 
unanimous consent that my statement be part of the record. I 
wish everyone a happy holiday weekend, and I yield back.
    Chairman Royce. Thank you, Mr. Engel. We go now to Mr. 
Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. And I thank 
you for bringing H. Res. 354 before the committee for markup 
and for your leadership on human rights issues in general and 
on combating anti-Semitism in particular.
    Mr. Chairman, violent anti-Semitic attacks between 2013 and 
2014 doubled, and in some European countries actually 
quadrupled. H. Res. 354 focuses on essential actions needed to 
prevent, mitigate, and respond to deadly anti-Semitic attacks 
like those in Paris, Copenhagen, and Brussels.
    Specifically, it urges the U.S. Government to encourage our 
European allies to ensure they formally recognize, partner 
with, and exchange information with Jewish community security 
groups in their countries. There are excellent examples of this 
in the United States, the United Kingdom, and in France. So 
these best practices need to be replicated.
    The resolution highlights the importance of European 
governments supporting several key assessments and adjusting 
their strategies and efforts to combat anti-Semitism 
accordingly. It emphasizes the importance of European 
governments developing public awareness and suspicious activity 
campaigns like ``if you see something, say something'' 
initiatives, helping Jewish communities developing baseline 
safety standards, and integrating efforts to combat violent 
extremism and ones to combat anti-Semitism as appropriate.
    H. Res. 354 stresses relevant training for law enforcement, 
implementing declarations, decisions, and commitments related 
to anti-Semitism in the Organization for Security and 
Cooperation in Europe, the OSCE, and ensuring European 
governments have mandated and resourced senior officials to 
lead their anti-Semitism efforts.
    Finally, the resolution affirms support for the mandate of 
the U.S. Special Envoy to Monitor and Combat Anti-Semitism, a 
position that I actually authored the amendment to create some 
years ago, and urges the Secretary of State to continue strong 
U.S. reporting on anti-Semitism.
    H. Res. 354 is a blueprint for actions that are critical 
for the safety and security of Jewish communities in Europe and 
for our government's engagement with our European allies to 
combat anti-Semitism. The specific actions recommended here are 
based on consultations with leading security experts who work 
closely with European Jewish communities.
    This resolution has broad bipartisan support. It is 
cosponsored by 84 Members of Congress, including 23 members of 
this committee. All of my fellow co-chairs of the bipartisan 
Task Force on Combating anti-Semitism are original cosponsors, 
including Ranking Member Eliot Engel, Ileana Ros-Lehtinen, Ted 
Deutch, who are members of this committee, and Nita Lowey, Kay 
Granger, Peter Roskam, and Steve Israel. It also has the strong 
support from many of the Jewish organizations.
    I yield back, and again, I thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Smith. Mr. Cicilline of 
Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank 
you, Chairman Royce and Ranking Member Engel, for your strong 
support and cosponsorship of House Resolution 348, and thank 
you for scheduling a markup on both of these bills today.
    House Res. 348 signals strong congressional support for 
free elections in Ukraine. I thank my many colleagues on the 
committee who have signed on as cosponsors as well. The 
democratic and economic development of Ukraine in the face of 
Russian aggression remains one of the most vital efforts the 
United States could undertake to combat Russian intransigence 
and show our unwavering commitment to promoting democracy and 
human rights around the world.
    The illegal and forceful occupation of Crimea and the 
ongoing Russian support for separatists in eastern Ukraine are 
an affront to international law and diplomacy. The Minsk II 
agreement was an historic step toward potentially ending the 
violence and unrest in the country. And it is now upon the 
governments of Ukraine, Russia, the United States, and our 
European allies as implementing partners to ensure its 
successful execution.
    A vital part of that implementation will be to hold free 
and fair elections throughout Ukraine, including under the 
terms of the agreement eventually in the Donbas region 
controlled by Russian-led separatists. Ukraine has local 
elections scheduled for most of the country except some 
separatist-controlled areas for October 25.
    This resolution demonstrates this Congress's unwavering 
commitment to supporting the right of the people of Ukraine to 
freely elect their government and determine their future. It 
condemns any Russian attempts to interfere in Ukraine's 
elections in any way, including through intimidation, violence, 
or coercion.
    During Ukraine's last elections, these tactics were used to 
prevent Ukranians from voting in certain regions. This cannot 
happen again. And any actions undermining these elections must 
be met with swift and certain international condemnation. At 
this delicate juncture in Ukraine's history, it is essential 
that the United States and our European allies continue to 
demonstrate steadfast support for Ukranian territorial 
integrity, sovereignty, and the right of the Ukranian people to 
participate in a free and fair electoral process.
    Again, I thank my colleagues for their support and urge 
them to support this resolution. And with that, I yield back.
    Chairman Royce. Thank you. Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I want to commend you 
for bringing this legislation before the committee today. 
Russian aggression continues to violate Ukraine's political and 
economic sovereignty. And unfortunately, it has gone largely 
unrebuked around the world. If stability and peace is ever to 
be reestablished in Ukraine, it is vital that the people of 
Ukraine have the freedom to choose their own representatives, 
as well as take the necessary steps to ensure that their own 
future, without the coercion and vicious tactics orchestrated 
by Putin, is possible.
    As the shining example of freedom and democracy, America 
has a duty to support the Ukranians seeking constitutional 
reform and free and fair elections. This measure recognizes 
those realities and reasserts our support for the Ukranian 
people to freely elect their own government. It is a timely 
measure. I urge its adoption, and I yield back.
    Chairman Royce. We go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And I want to thank 
you and the ranking member for adding H. Res. 348 to this 
markup. And I want to thank the authors of the resolution. This 
committee has spoken loudly about not only Ukraine, but about 
Crimea as an integral part of the Ukraine, and that we are not 
conceding. And I am glad to say that the nonrecognition act on 
the Ukraine has in fact been incorporated into the defense 
authorization bill.
    It is vital that we speak firmly and we back it up with 
sanctions and other measures so that Vladimir Putin never gets 
the wrong impression about our acquiescence in a violent 
military action that subverted the sovereignty of another 
country. We will not accept that. Ever. And I think it is 
really important this committee continues to speak with one 
voice and as firmly as possible on a bipartisan basis. And 
indeed we have.
    So I thank Mr. Cicilline in particular for his leadership 
on this resolution, and look forward to voting for it. And 
thank you, Mr. Chairman, and you, Mr. Engel, the ranking 
member, for your leadership as well.
    Chairman Royce. And we go now to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Well, I hate to be the skunk at the lawn 
party here, but let me just note that I do support the basic 
goal of this legislation, which is to reaffirm that we believe 
as Americans that the democratic process should be followed in 
Ukraine, and that we are upset, and we know the great challenge 
there that they have.
    And certainly the first two whereases, ``strongly support 
the right of the people of Ukraine to freely elect their 
government and determine their future.'' Yes. Of course. 
``Urges the administration to expedite assistance to Ukraine to 
facilitate the political, economic, and social reforms 
necessary for free and fair elections that meet international 
standards.'' Yes. And there is no doubt about that. We want to 
end the conflict and upheaval that is going on that is so 
detrimental to all of the people of Ukraine and destabilizing 
to Europe. And so this puts us on record.
    Unfortunately, we can't seem to go on record doing that 
without again giving Russia a kick in the pants, and basically 
ignoring what started the destabilization of Ukraine in the 
first place. Basically, we blame it, yes, Yanukovych was 
president, whereas he fled the country. It doesn't say--it 
doesn't start there. It doesn't start with Yanukovych fleeing 
the country.
    This whole episode that has destabilized Ukraine started 
when violence, instigated by internal Ukranian opposition, as 
well--and they were in coordination and consultation with other 
foreign powers, meaning our European friends--created violence, 
a violent situation that led to the destabilization of an 
elected government.
    We can close our eyes all we want, we can pretend this is 
all Russia. Yanukovych was an elected government. There was 
huge violence that was caused when he made a major policy 
decision. Instead of letting the election take care of it, they 
had massive, not just demonstrations, but we are talking about 
massive violence.
    And I know that there has been an effort to try to make, 
oh, no, that was just Yanukovych attacking the demonstrators. 
That was not what happened. We now have every evidence, I met 
with a group of Ukranians just a couple nights ago, clearly, 
what we have was violence against an elected government. And 
Mr. Smith was there to see that Yanukovych was elected in a 
fair election. And instead of waiting for the next election, 
our European friends had to collude with forces inside of 
Ukraine to create a destabilization of an elected government.
    Now, the bottom line is that has not even been touched on 
here. Everything is Russia's fault. Well, yes, when Yanukovych 
fled and the elected government was overthrown, the fact is the 
Russians did act, and I opposed that. I think when the Russians 
sent troops in that was wrong. We have every reason to condemn 
that. The Russians should not have sent troops in.
    And yes, we need to call upon--what we have here is to make 
sure that we are on the side of free elections, and that we 
want to help the Ukranians. But then we condemn the part of 
outside forces, specifically the Government of Russia, ignoring 
the fact that other governments have been involved in 
overthrowing an elected government.
    Either we should leave that out or we should just say 
``attempts by outside forces'' and leave out this little jab at 
Russia. We are not going to make anything better by continuing 
to jab Russia rather than looking at ways we can cooperate to 
end the conflict in Ukraine.
    Again, let's reach out--that is what happened in the Minsk 
agreement, which the chairman already mentioned. The Minsk 
agreement sets out a plan. And Russians agreed to it. Let's 
work with them to see how we implement the plan rather than 
kicking them in the pants.
    Well, I am going to be opposing this, but I do think the 
actual goal of this, which is to try to say we are behind free 
elections and want Ukraine to come out of it, that certainly is 
a worthy goal.
    This, you know, doesn't--it is not going to achieve that. 
It is going to actually achieve the opposite, because in Russia 
it will be looked at as a slap in the face. Why should we ever 
cooperate with these bums who are blaming it all on us and 
forgetting the fact that an elected government in Ukraine was 
overthrown?
    So with that said, I stand in opposition, and I stand in 
favor of the spirit of what you are trying to accomplish, but 
this will not achieve your goal and go in the opposite 
direction.
    Chairman Royce. Thank you, Mr. Rohrabacher. We go now to 
Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chairman. Just a little change 
of pace here. So Mr. Chairman, thank you. I am a cosponsor, a 
proud cosponsor of both resolutions. I thank the authors.
    And first, I want to just say in terms of House Resolution 
348, that I found our trip to Ukraine was very enlightening, 
and really highlighted the necessity for the free and fair 
elections in order for Ukraine to regain its civility.
    As to House Resolution 354, and Mr. Smith, I do thank you 
again for that, and I do want to make a few remarks. Because I 
want to add my concern for the safety and security of Jewish 
communities in Europe. The rise of anti-Semitic incidents 
throughout Europe in recent years is deeply troubling. In the 
past 2 years, terrorists have murdered Jews in the capital 
cities of Belgium, Denmark, and France. Jews and Jewish 
institutions, synagogues, and schools across Europe have 
suffered numerous violent attacks.
    As a result of this threatening environment, according to 
polls done by the ADL and other reputable organizations, more 
than 40 percent of Jews in Belgium, France, and Hungary are 
considering emigration. Journalists, scholars, and politicians 
are debating whether there can be a future for the Jewish 
community in Europe, where Jews are afraid to attend events in 
holy sites, and where again, according to ADL, 20 percent of 
European Jews have experienced at least one incident of anti-
Semitic physical attack or harassment.
    Fortunately, educated observers believe that today's events 
in Europe are not analogous to the 1930s Germany. Then, the 
hatred, the persecution and extermination of Jews was state-
sponsored. In contrast, today's leaders across Europe are 
working to stem the tide of anti-Semitism, and key European 
leaders have spoken out against anti-Semitism and have taken 
concrete actions to fight it.
    With that said, however, I agree with those who believe 
that this is a defining moment for Europe. Our European 
partners' and allies' ability to confront anti-Semitism will 
ultimately impact the very essence of the character of their 
nations. And as the French prime minister stated, if Jews flee 
in large numbers, the soul of the French Republic is at risk. 
France will no longer be France.
    And that is one of the reasons, of course, why House 
Resolution 354 is so important. We must support European 
governments, law enforcement agencies, and other entities to 
bolster Jewish security and preparedness, tighten 
communications with Jewish communities, and combat violent 
extremism broadly with counterradicalization and education.
    And ultimately, helping Europe stem the rising tide of 
anti-Semitism means helping European nations to fulfill the 
principles of democracy, human dignity, openness, and 
pluralism, and the noble principals upon which these nations 
were founded. I yield back.
    Chairman Royce. Thank you. We go now to Congressman Poe.
    Mr. Poe. I thank the chairman. I appreciate the words of my 
friend from California, Mr. Rohrabacher, but I see this 
completely different. The Russian bear invaded Georgia, gobbled 
up one-third of the territory, and it is still in Georgia. 
Still hungry for more land, it went into Crimea, took it, 
claimed it as its own, and then still on the move, the bear 
went into eastern Ukraine, where it is now. And we all know 
that Russia now is in Syria, based on some faulty excuse.
    Ukranians have the right to self-determination. This 
resolution says the Ukranians will decide what their government 
is going to be, not the Russians. Contrary to what Putin said, 
the Napoleon of Siberia, Ukraine should decide about Ukraine, 
not him.
    So I think it is a good thing that the United States, a 
country that believes in self-determination and democracy, 
support the Ukraine and the Ukranians in their quest for really 
not just elections, but to be rid of the invaders from Russia. 
I think we ought to do more for Ukraine than the United States 
has done. Besides sending them meals ready to eat, we ought to 
help them defend their own sovereignty against Russia, which is 
another issue.
    This resolution is a good idea. America stands for 
democracy and self-determination even for Ukranians. So I 
totally support it, I am glad I am a cosponsor, and I 
appreciate the chair and ranking member bringing this up before 
the committee for a vote. I yield back.
    Chairman Royce. Thank you, Judge. We go now to Mr. Brad 
Sherman of California.
    Mr. Sherman. I want to comment about both bills. I disagree 
with a portion of what Dana Rohrabacher had to say for reasons 
everybody else has already expressed. I agree with a portion of 
what he said. He is right on the history, and that is a 
democratic elected government reneged on a giant promise, and 
instead of distributing campaign leaflets there was a regime-
threatening presence of large numbers of people. Woe be to our 
state and Federal Governments if 1 million people will demand 
extraconstitutional governmental changes each time politicians 
renege on a promise. It has happened here, I am told.
    There is one part of the resolution that I think we can all 
agree on, and it may mean more if read in an American context. 
We say we strongly support the right of the people of Ukraine 
to freely elect their government. I turn to the gentleman from 
Texas, Mr. Poe, and would say, as a Texan, would you think that 
Texans were free to elect their government if your governor was 
appointed by President Barack Obama rather than elected by the 
residents of Texas? Would that be unpopular with the people in 
your district?
    Mr. Poe. It would be unpopular. It would be against the law 
in our State. So we would follow what our law is. We need to 
let the Ukranians make up their mind what their law is.
    Mr. Sherman. I would say that. And at the same time, we 
have a Federal system here in which people are free to elect 
their own governor. And that has served us well, and perhaps 
would serve as a model for the Ukraine. And certainly when 
Americans say in a resolution ``free to elect their own 
government,'' most ordinary Americans would think that that 
would include electing your own governor.
    Mr. Rohrabacher. Would the gentleman yield for a question?
    Mr. Sherman. I will yield for a question.
    Mr. Rohrabacher. So I understand they are going to have 
their election and they have not agreed to permit their 
governors to be elected. The local government will now be 
appointed?
    Mr. Sherman. I am not sure that that has been determined. 
But there are certainly some in Kiev who think that the local 
governor should be appointed. And I have urged our Ukranian 
friends, especially in a country with such regional 
differences, just as our country has regional differences. But 
you are going to have to turn to other experts.
    Mr. Rohrabacher. That should be in this bill. Mr. Chairman, 
that should be in this bill.
    Mr. Sherman. I will reclaim my time because I want to talk 
about the anti-Semitism resolution. We would have more 
credibility talking to the world about anti-Semitism if it 
wasn't so prevalent on at least a few American campuses. On 
some of our campuses, federally funded in large part, you are 
told that you are not qualified to serve in student government 
unless you agree that Israel should be abolished and the Middle 
East should be ethnically cleansed of Jews.
    Now, we do have a civil rights law, and Title VI requires 
that those on campus not face anti-Semitism. But for anti-
Semitism to be fought, you need a definition of anti-Semitism. 
The State Department has a definition of anti-Semitism. When we 
criticize other countries for allowing anti-Semitic behavior or 
engaging in anti-Semitic behavior, that is the definition we 
use.
    And I would hope that members of this committee would join 
me in writing to the U.S. Department of Education and saying it 
certainly undercuts our foreign policy when we tell other 
countries this is the definition of anti-Semitism, you should 
not allow--or you should protect Jews from this anti-Semitic 
behavior, if we can't get the U.S. Department of Education to 
agree with the same definition.
    For us to have any credibility in the world on this issue, 
the U.S. Department of Education needs to enforce the law. And 
the first step in enforcing the law is defining the law. So I 
hope to have a few cosigners for a letter. And I yield back.
    Chairman Royce. Do any other members seek recognition? 
Hearing no further requests for recognition, the question 
occurs--oh, Mr. Trott.
    Mr. Trott. Thank you, Mr. Chairman and Ranking Member 
Engel, for bringing these two resolutions forward.
    I support H. Res. 348. The Cold War is back. The President 
is largely insouciant toward Russian aggression. Someone has to 
stand for freedom. And I hope that Russia is irritated by this 
resolution, but I suspect they will be just largely amused.
    I also support H. Res. 354. Anti-Semitism is rampant. Mr. 
Sherman, I will be happy to sign that letter. It is a problem 
on our college campuses. And I think calling attention to the 
problem of Jewish safety and security is necessary. And I just 
want to go on the record as also strongly supporting H. Res. 
354. I yield back.
    Chairman Royce. Any other member seeking recognition?
    Hearing no further requests, the question occurs on the 
items considered en bloc.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measures considered en bloc are agreed to. And without 
objection, House Resolution 348 and House Resolution 354 are 
ordered favorably reported, as amended. And the staff is 
directed to make any technical and conforming changes.
    Also, without objection, the Chair is authorized to seek 
House consideration of those measures under suspension of the 
rules.
    And that concludes our business for today. I thank Ranking 
Member Engel and all of our committee members for their 
contributions and assistance to today's markup. The committee 
is adjourned.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                      Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
